ftytrti District Court of Appeal
State of Florida
Opinion filed April 1,2020.
Not final until disposition of timely filed motion for rehearing.

No. 3D 18-272
Lower Tribunal No. 09-29542

Amadeo Vails,
Appellant,
vs.

The State of Florida,
Appellee.

An Appeal from the Circuit Court for Miami-Dade County, Marisa Tinkler
Mendez, Judge.

J. Andrew Crawford (St. Petersburg), for appellant.
Ashley Moody, Attorney General, and Michael W. Mervine and Jennifer A.
Davis, Assistant Attorneys General, for appellee.

Before SALTER, SCALES and HENDON, JJ.
PER CURIAM.
Affirmed.

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
APRIL 20, 2020

AMADEO VALLS,
Appellant(s)/Petitioner(s),
vs.
THE STATE OF FLORIDA,
Appellee(s)/Respondent(s),

CASE NO.: 3D18-0272
L.T.NO.:

09-29542

Upon consideration, Appellant’s Motion for Rehearing and for a
Written Opinion is hereby denied.
SALTER, SCALES and HENDON, JJ., concur.
Appellant’s Motion for Rehearing En Banc is denied. EMAS, C.J.,
and SALTER, FERNANDEZ, LOGUE, SCALES, LINDSEY, HENDON,
GORDO and LOBREE, JJ., concur.
MILLER, J., recused.
A Tmc-Gypy * R /; ]pATTEST

cc:
la

J. Andrew Crawford
Office of Attorney General

Jennifer A. Davis

Michael W. Mervine

®f)trb Btsftrtct Court of Appeal
State of Florida
Opinion filed February 25,2015.
Not final until disposition of timely filed motion for rehearing.

No. 3D13-106
Lower Tribunal No. 09-29542

Amadeo Vails,
Appellant,
vs.

The State of Florida,
Appellee.
An Appeal from the Circuit Court for Miami-Dade County, Bronwyn C.
Miller, Judge.
Michelle Walsh, for appellant.
Pamela Jo Bondi, Attorney General, and Jeffrey R. Geldens, for appellee.
Before SALTER, EMAS and LOGUE, JJ.
SALTER, J.
Amadeo Vails appeals his convictions and concurrent life sentences for first
degree murder and armed burglary. The unusual personal and legal relationships

among the defendant, the victim, and the owner of the residence that was the site
of the incident justified a jury instruction that was requested by the defense, but
opposed by the State and denied by the trial court. For the reasons which follow,
we reverse Vails’ convictions and sentences, and we remand the case for a new
trial.
Facts and Procedural History
Vails and the woman who owned the residence in question had known each
other for thirteen years or more. There was testimony that the two had a romantic
relationship at some point. Vails remained friendly with the owner’s daughter, and
he entered into a verbal arrangement to rent a room at the owner’s residence. His
occupancy commenced in August 2009, about three weeks before the incidents and
shooting that gave rise to the criminal charges against him.

His initial cash

payment of S500.00 was to entitle him to occupancy through mid-October of 2009.
Consistent with prior transactions in which the owner had rented a room to
individuals, she gave Vails a key and granted him access to the common areas of
the home, including the front and back yard, kitchen, living room, and a bathroom.
There was a gate across the driveway between the residence and the entry from the
street, but it was unlocked, and renters were allowed to park in the driveway.
Not long after Vails moved into the room, the owner observed objectionable
behavior by him and asked him to leave the rented room. He agreed to leave, but

2

refused to return his key or remove his property immediately. Vails moved to
another rental, but continued to visit the owner and her home to retrieve his
property little by little.
The victim, John Purvis, had also had a previous romantic relationship with
the woman who owned the residence, and he had lived for a time with her in the
home. Later, they broke up and Purvis moved away. But after Vails moved out of
the home, the owner invited Purvis to stay with her again. Vails learned of this,
and was allowed by the owner to stop by the house to have some beer with Purvis.
The two men stayed up late, and Vails slept in the spare room. Upon learning this
the next morning, the owner asked Vails to leave her home. Vails became angry,
and the owner changed the locks to the home. The owner took no other steps to
terminate the oral tenancy or to remove Vails’ remaining property from the home.
On the date of the shooting (September 7, 2009), Vails and his brother
visited the home to remove more of his property. The owner let them in. Vails
and Purvis got into a heated conversation. There was conflicting testimony as to
whether Vails made a veiled threat to Purvis, and whether Purvis ordered Vails to
leave the home.
That night, Vails asked his brother to drop him off near the home so that he
could pull the oil plug out of Purvis’s car “to teach him a lesson.” Vails carried his
loaded handgun with him. Purvis’s dogs, which were in or around the home,

3

began barking. Purvis looked outside and saw a light under his car. Purvis walked
out of the home with his gun, just as Vails’ brother was walking toward the house.
The brother testified that he heard someone say “hey,” and then heard multiple
gunshots from different guns. Ultimately, Vails was shot in the wrist, and Purvis
died of multiple gunshot wounds.

Crime scene investigators were unable to

conclude which of the two men initiated the gunfire.
Vails was charged with first degree murder and armed burglary. At trial, the
defense argued that Purvis fired the first shot, that Vails returned fire in selfdefense, and that Vails had a right to enter the residential property and driveway.
If accepted by the jury, a finding in this case that Vails had a right to enter the
property would have required a not guilty verdict on the armed burglary charge,
even if Vails was guilty of some lesser crime in vandalizing Purvis’s car.
Conviction of a lesser crime would not have barred Vails’ claim of self-defense.
The defense initially submitted a proposed special jury instruction regarding
the particulars of landlord-tenant law, including a landlord’s recovery of
possession, the surrender and abandonment of leased premises, and the written
notices required to terminate a month-to-month tenancy. The trial court rejected
the special instruction, concluding that it would unfairly highlight evidence
favorable to Vails.

4

Counsel and the court then considered the instructions relating to the
elements of burglary.

The State asked the court to omit paragraph three of

Standard Criminal Jury Instruction 13.1 regarding the burglary charge.

That

paragraph and the commentary pertaining to it states:
Give element 3 only if defendant meets his or her burden of
production that he or she had an invitation or license to enter, or
that the premises were open to the public. See State v. Hicks, 421 So.
2d 510 (Fla. 1982), and State v. Waters, 436 So. 2d 66 (Fla. 1983).
3. [(Defendant) was not [licensed] [invited] to enter the
[structure] [[conveyance].] [The premises were not open to the
public at the time of the entering.]
The defense specifically requested the inclusion of paragraph three based on
evidence that Vails’ oral lease, rent payment, and prior visits to the property gave
him a license or right of entry, and that the driveway was open to visitors. The trial
court removed paragraph three, concluding that paragraph one of the instruction
was sufficient to present the “ownership” issue to the jury.

Regarding self-

defense, the court instructed the jury that the use of deadly force was not justifiable
if the defendant was attempting to commit, committing, or escaping after the
commission of, a burglary.

1 Paragraph one states that an element of the crime of burglary that must be proven
beyond a reasonable doubt is that “(Defendant) entered a [structure] [conveyance]
owned by or in the possession of (person alleged).” Fla. Std. Jury Instr. (Crim.)
13.1.
5

During closing argument, the State argued to the jurors that they were
required to follow the instructions issued by the court, and that “there’s not going
to be any law in there about landlord/tenant, and she had to evict him, and she had
to do this and that. This is not landlord/tenant court, this is a court of criminal
law....” The State told the jurors that the defense was contesting the elements of
burglary so intently because “if he committed a burglary, he doesn’t get selfdefense, so they got to get off the burglary, got to give the defendant a right to be
there, got to say he should have been there, because if not, it’s a burglary, and he
doesn’t get self-defense.”
During deliberations, the jury sought clarification on the differences between
burglary and criminal mischief. The court responded that criminal mischief is a
lesser included offense of burglary and offered to re-read the instructions.
Thereafter, the jury returned verdicts of guilt on each of the charges. Vails was
sentenced to concurrent life sentences, and this appeal followed.
Analysis ,
At the outset, we reject each of the issues on appeal raised by Vails other
than his argument relating to the elimination of paragraph three from the standard
instruction on burglary. The inclusion of that paragraph would have required the
jury, in order to convict Vails on the burglary charge, to find that he did not have a

6

license or other right to enter the residential driveway in the moments before the
shootings.
A defendant is entitled to a jury instruction on his theory of defense that is
recognized by law and which is supported by any evidence presented. Rodriguez
v. State. 396 So. 2d 798 (Fla. 3d DCA 1981). Both elements are present in this
case.
One of the established defenses to burglary is a defendant’s entitlement, or
license, to enter the property. State v. Hicks, 421 So. 2d 510 (Fla. 1982). The
right to be on the premises extends to persons renting the premises. Anderson v.
State. 356 So. 2d 382, 384 (Fla. 3d DCA 1978). That claim of right was the theory
sought to be presented here—Vails’ initial, prepaid rental months had not expired as
of the date of the shooting, the verbal rental agreement had not been terminated as
provided by law, and he still had property in the house. Even after the locks were
changed, Vails was again allowed entry by the homeowner.

The theory was

supported by the testimony of the homeowner and Vails’ brother. This is not a
case, as in Dreisch v. State. 436 So. 2d 1051 (Fla. 3d DCA 1983), in which there
was no evidence in the record relating to the proposed defense and instruction.
Here, as in Bryant v. State. 102 So. 3d 704 (Fla. 1st DCA 2012), the
defendant presented evidence supporting a defense of consent to enter the
residential property.2 That defense, if accepted by the jury, would serve as a

7

defense to the burglary charge and remove a statutory bar to Vails’ assertion of
self-defense regarding the murder charge.
The State argues that any infirmity created by eliminating paragraph three
from the standard burglary instruction was cured by an instruction that the jury
could consider the “totality of the circumstances” in determining whether the
homeowner had a superior possessory interest to any possessory interest claimed
by Vails. The State also argues that any issue regarding “license” or invitation to
enter the property was not preserved by Vails.
We disagree. The charge conference colloquy relied upon by the State for
that argument related to the self-defense instructions rather than those detailing the
elements of burglary. Defense counsel adequately preserved a specific request,
overruled by the court, for the inclusion of paragraph three of the standard burglary
instruction. The jury’s request for clarification regarding the difference between
burglary and criminal mischief underscores the significance of the burglary
instruction requested, versus the instruction given, in the context of this unusual
record.
Conclusion

2 I11 Bryant the defense of consent was asserted to a claim of burglary in which the
defendant “kicked in the back door and entered the apartment” in which the victim
resided. Id. at 705. In the present case, Vails did not enter the residence itself to
commit the alleged crimes. The actions in question occurred in the driveway and
yard surrounding the home.
8

Vails’ right of entry, or lack of any right to enter the driveway and yard of
the residence, was a critical aspect of this case, relating not only to the burglary
charge, but also to his theory of defense regarding the murder charge. A critical
instruction relating to that issue was deleted, depriving Vails of a fair trial
regarding both charges. Ramirez v. State, 125 So. 3d 171, 176 (Fla. 4th DCA
2013).
Vails’ convictions and sentences are reversed and remanded for a new trial.

9

251 So.3d 144 (Table)
Amadeo VALLS,
Appellant(s)/Petitioner(s),
v.
The STATE of Florida,
Appellee(s)/Respondent(s),
CASE NO.: 3D17-2534
District Court of Appeal of Florida,
Third District.
MAY 02, 2018

DECISION WITHOUT PUBLISHED
OPINION
Dismissed.

-1-

Additional material
from this filing is
available in the
Clerk's Office.

